March 18, 2011

STEVEN J. FORTE
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

DAVID E. WILLIAMS, JR.
VICE PRESIDENT, NETWORK OPERATIONS

DOUGLAS A. TULINO
VICE PRESIDENT, LABOR RELATIONS

SUBJECT: Audit Report – Postal Vehicle Services – Scheduling and Staffing –
         Connecticut Valley District (Report Number NL-AR-11-002)

This report presents the results of our audit of Postal Vehicle Service (PVS)
operations in the Connecticut Valley District (Project Number 10XG009NL001). The
U.S. Postal Service Office of Inspector General (OIG) initiated this audit because the
Connecticut Valley District was one of the top districts in our assessment of
operational risk based on key transportation indicators. Our objective was to
determine whether scheduling and staffing of PVS operations are efficient, effective,
and economical. See Appendix A for additional information about this audit.

U.S. Postal Service transportation includes both nationwide network transportation
between cities and major facilities as well as delivery transportation between local
post offices and neighborhood delivery and pickup points. Network transportation
using Postal Service vehicles and employees is called PVS. Management typically
assigns PVS vehicles and personnel to Postal Service network facilities, such as
network distribution centers (NDCs) or processing and distribution centers (P&DCs)
in or near metropolitan areas. PVS operations are normally conducted within 50
miles of the 154 Postal Service facilities with PVS operations. PVS drivers travel
about 150 million miles every year.

Because PVS operations are local, they are managed at the facility level under
guidance from district, area, and headquarters transportation officials. Drivers who
work within the PVS craft are represented by the American Postal Workers Union
(APWU) and the work rules governing PVS operations are covered under the
Collective Bargaining Agreement.1 The existing collective bargaining agreement
allows for limited use of part-time employees for the PVS craft and requires
consecutive days off for employees in most circumstances.

1
  The duration of the agreement was February 3, 2007, through November 20, 2010. However, the Postal
Service is still in negotiations with the APWU on a new agreement and the old agreement remains in effect until
a new one is reached.
Postal Vehicle Services – Scheduling                                                 NL-AR-11-002
 and Staffing – Connecticut Valley District



Conclusion

The Connecticut Valley District can more efficiently and effectively manage PVS
transportation processes and schedules, thereby reducing driver workhours as well
as associated fuel use and damage claims. In addition, the Postal Service could use
alternate schedules to include split days off and expand the use of part-time drivers
for PVS operations where possible. This would allow managers to more efficiently
staff operations and match workhours with workload. By making these changes, we
estimate the Connecticut Valley District could save about $2 million a year in labor
and related costs.

Excess Workhours and Associated Cost Reductions

We determined that current PVS schedules were efficient at two of the four facilities
audited in the Connecticut Valley District – the Hartford and Stamford P&DCs.
However, officials at the Southern Connecticut and Springfield P&DCs could more
effectively manage PVS transportation processes and schedules to ensure
efficiency. Officials in these two facilities were not effectively managing PVS
transportation processes and schedules as evidenced by unassigned driver time and
underutilized trips. This occurred because management did not conduct required
schedule and vehicle utilization reviews at these two locations. We concluded that
management could remove 11,807 excess workhours at the Southern Connecticut
P&DC and 2,856 excess workhours at the Springfield P&DC from existing PVS
schedules and reduce related fuel costs and damage claims, thereby saving the
Postal Service about $600,000 a year.2 See Appendix B for our detailed analysis of
this topic.

We recommend the vice president, Northeast Area Operations:

1. Ensure that Southern Connecticut Processing and Distribution Center and
   Springfield Processing and Distribution Center managers follow prescribed fleet
   management procedures for making Postal Vehicle Service schedules effective,
   including conducting schedule and vehicle utilization reviews.

2. Verify elimination from the Postal Vehicle Service trip schedules of 7,245
   workhours from the Southern Connecticut Processing and Distribution Center
   and 2,856 workhours from the Springfield Processing and Distribution Center
   identified during our audit and already agreed to by management.

3. Reassess the remaining 4,562 workhours identified in our audit and eliminate the
   workhours as indicated by the reassessment, or document the reasons for
   retaining the workhours.
 
Management’s Comments


2
    Funds that could be used more efficiently by implementing recommended actions.

                                                       2
Postal Vehicle Services – Scheduling                                                             NL-AR-11-002
 and Staffing – Connecticut Valley District


The Northeast Area agreed with the recommendations in the draft report. In
response to recommendation 1, the Northeast Area issued a memorandum to all
facilities regarding their responsibilities in conducting annual PVS reviews and set up
a tracking system to monitor compliance. Further, management intends to conduct
zero-base reviews in all of their facilities in fiscal year (FY) 2011. In response to
recommendations 2 and 3, the Northeast Area agreed with eliminating 7,245
workhours identified during our audit and committed to having all changes in place
by April 2011. Finally, the Northeast Area agreed to re-assess the 4,562 workhours
by conducting a zero-base review and will communicate those results to the OIG
after completion of the review in May 2011.

Evaluation of Management Comments

The OIG considers management’s comments responsive to the recommendations
and management’s corrective actions taken and planned should resolve the issues
identified in the report

Opportunities to Further Reduce Overall PVS Driver Labor Costs

The Postal Service could further reduce overall PVS operating costs by expanding
the use of all types of part-time drivers for PVS operations and using split days off
for drivers. This would allow managers to more efficiently create schedules that
match workhours with workload and, thus, reduce labor costs. These conditions
occurred because the existing agreement between the Postal Service and its union
restricts the percentage of part-time workers and use of part-time regular employees
and requires drivers to have consecutive days off in certain size facilities. If
management makes changes, we determined that, for the Connecticut Valley
District, the Postal Service has an opportunity to save more than $1.4 million a
year.3

We also benchmarked staffing and employee complement of motor vehicle
operations with a large commercial delivery company. We found that the company
has the flexibility to schedule and staff their transportation operations more efficiently
based on operational parameters and volume forecasting and can eliminate idle time
and unnecessary workhours within the craft. The Postal Service could implement
similar best practices to make PVS transportation operations more efficient. See
Appendix B for our detailed analysis of this topic.




We recommend the vice president, Network Operations:

3
  This is performed by taking advantage of the work hour schedule and staffing flexibilities under the existing
collective bargaining agreement work rules and by negotiating and modifying work rules, as necessary, in the
upcoming renewal of the collective bargaining agreement.

                                                        3
Postal Vehicle Services – Scheduling                                                          NL-AR-11-002
 and Staffing – Connecticut Valley District



4. Fully utilize the flexibility under the existing American Postal Workers Union
   Collective Bargaining Agreement and Memorandum of Understanding to
   increase the use of split days off for Postal Vehicle Service (PVS) drivers and
   maximize the use of part-time regular PVS drivers where possible.

We also recommend the vice president, Network Operations, coordinate with the
vice president, Labor Relations, to pursue additional flexibilities to:

5. Increase the allowable percentage of all types of part-time employees to allow
   maximum use of part-time regular employees in facilities with Postal Vehicle
   Service operations.

6. Provide permanent flexibility to schedule split days off for employees in facilities
   with Postal Vehicle Service operations.

Management’s Comments4

Management agreed with the findings and recommendations. In response to
recommendation 4, management stated the Memorandum of Understanding (MOU)
agreement between the union and the Postal Service, signed January 15, 2009, has
resulted in 21 pilot sites with amended work rules that include using split days off,
split shifts, and mixed duty assignments. As of October 2010, expansion of the MOU
was mutually suspended due to contract negotiations. Management agrees that the
use of part-time work staff is a tactic that local facilities can use to increase PVS
efficiencies.

In response to recommendations 5 and 6, Network Operations management stated
that they fully intend to maximize the benefits of the work rules mutually negotiated
in the new collective bargaining agreement. In the interim, offices are encouraged to
use part-time employees where applicable. Use of split days off is currently being
pursued as local MOU agreements until execution of the new collective bargaining
agreement.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations
and management’s corrective actions taken or planned should resolve the issues
identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be


4
 The VP, Labor Relations, did not provide separate comments to our draft report. A representative from his
office stated that they were satisfied with the comments provided by the VP, Network Operations.

                                                      4
Postal Vehicle Services – Scheduling                                     NL-AR-11-002
 and Staffing – Connecticut Valley District


closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have
any questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

     E-Signed by Robert Batta
   VERIFY authenticity with e-Sign




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Megan J. Brennan
    Cynthia F. Mallonee
    Pamela S. Grooman
    Kimberly J. Peters
    Corporate Audit and Response Management




                                              5
Postal Vehicle Services – Scheduling                                     NL-AR-11-002
 and Staffing – Connecticut Valley District


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service transportation includes both nationwide network transportation
between cities and major facilities as well as delivery transportation between local
post offices and neighborhood delivery and pickup points. Network transportation
using Postal Service vehicles and employees is called PVS. Management typically
assigns PVS vehicles and personnel to Postal Service network facilities, such as
NDCs or P&DCs in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations.
PVS drivers travel about 150 million miles every year. Because PVS operations are
local, they are managed at the facility level under guidance from district, area, and
headquarters transportation officials.

The work rules governing PVS operations are covered under the collective
bargaining agreement. The existing agreement allows for limited use of part-time
employees for the PVS craft and requires consecutive days off for employees, with
the exception of PVS employees in a limited number of facilities under a pilot
program being explored through a memorandum of understanding (MOU) that
allows for split days off.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether scheduling and staffing of PVS operations is
efficient, effective, and economical. Because individual facilities control PVS
operations, we localized our audit approach. This report focuses on PVS operations
in the Connecticut Valley District in the Postal Service’s Northeast Area. There are
four processing facilities in the Connecticut Valley District that employ PVS
operations: the Stamford, Southern Connecticut, Hartford, and Springfield P&DCs.

During our work, we visited four P&DCs in the Connecticut Valley District as well as
other associate offices. We reviewed relevant Postal Service policies and
procedures, interviewed managers and employees, and observed and photographed
operations. We evaluated the type of mail carried and considered on-time service
standards. We examined the cost of PVS operations, including the cost of PVS
personnel, fuel, and damage claims. We identified unscheduled time and trip
duplications and analyzed potential trip consolidations. We also reviewed the
collective bargaining agreement the Postal Service has with the APWU.




                                              6
Postal Vehicle Services – Scheduling                                          NL-AR-11-002
 and Staffing – Connecticut Valley District




                            October 21, 2010. A Southern Connecticut P&DC
                             PVS Tractor Trailer with sacks and pallets for
                                            future mailings.

Using Postal Service computer-generated data and other records, we analyzed
145 Connecticut Valley District driver schedules; identified 233,712 annual
workhours associated with those schedules; and evaluated individual trips and trip
load volume. We conducted the analysis to determine whether management could
reduce workhours and labor costs. As part of our review of the Connecticut Valley
District’s PVS schedules, we analyzed driver assignments and determined whether
drivers made duplicate or unproductive trips. We also reviewed the fuel reduction
initiatives for Postal Service-owned vehicles as contained in the Postal Service’s
National Energy Plan and determined whether our recommendations impacted the
initiatives.

We conducted this performance audit from September 2010 through February 2011
in accordance with generally accepted government auditing standards and included
such tests of internal controls as we considered necessary under the circumstances.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. We
discussed our observations and conclusions with management on February 8, 2011,
and included their comments where appropriate.

We noted several weaknesses in the computer-generated data that limited our work.
For example, some computer records had missing data and inaccurate load
volumes. Although these limitations constrained our work, we were able to
compensate by applying alternate audit procedures, including observation, physical
inspection, and discussion with appropriate officials. We also applied conservative
principles to our workhours and cost-reduction estimates.




                                                  7
Postal Vehicle Services – Scheduling                                                          NL-AR-11-002
 and Staffing – Connecticut Valley District


PRIOR AUDIT COVERAGE

At the request of the vice president, Network Operations, the OIG has worked with
the Postal Service in the past on reducing PVS costs. As indicated in the chart
below, since March 2007, we have issued 13 audit reports that identified labor and
other potential savings exceeding $125.9 million. Management agreed with all of our
recommendations. The methodology and findings presented in these reports are
comparable to the zero-base methodology5 and findings in this report. In addition
based on this past work, we identified areas where additional flexibilities were
needed in the PVS craft, which lead to the audit work that is the basis of this report.

                                                                                                Monetary
                                                          Report         Final Report
                 Report Title                                                                    Impact
                                                          Number             Date
                                                                                              (in millions)
Postal Vehicle Service Transportation
Routes – Memphis Processing and                      NL-AR-07-003          3/30/2007              $7.3
Distribution Center
Postal Vehicle Service Transportation –Los
                                                     NL-AR-07-006          9/21/2007               4.9
Angeles Bulk Mail Center
Postal Vehicle Service Transportation
Routes – Milwaukee Processing and                    NL-AR-07-007          9/27/2007               4.0
Distribution Center
Postal Vehicle Service Transportation
Routes – San Francisco Processing and                NL-AR-08-003          3/26/2008              10.1
Distribution Center
Postal Vehicle Service Transportation
Routes – Northern Virginia Processing and            NL-AR-08-006          9/25/2008               8.0
Distribution Center
Postal Vehicle Service Transportation
Routes – Minneapolis Processing and                  NL-AR-09-001          2/13/2009               9.3
Distribution Center
Postal Vehicle Service Transportation
                                                     NL-AR-09-005          7/17/2009               4.3
Routes – Philadelphia Bulk Mail Center
Postal Vehicle Service Transportation
Routes – Philadelphia Processing and                 NL-AR-09-006          7/20/2009               5.4
Distribution Center
Postal Vehicle Service Transportation
Routes – Cardiss Collins Processing and              NL-AR-10-002         12/28/2009              18.3
Distribution Center
Postal Vehicle Service Transportation
Routes – Southern Maryland Processing                NL-AR-10-006          7/14/2010               4.8
and Distribution Center



5
  A “zero-base” review consists of analyzing whether tasks were actually needed and, if so, analyzing how much
time the drivers needed to perform them.

                                                      8
Postal Vehicle Services – Scheduling                                                       NL-AR-11-002
 and Staffing – Connecticut Valley District



                                                                                             Monetary
                                                             Report     Final Report
                     Report Title                                                             Impact
                                                             Number         Date
                                                                                           (in millions)
Postal Vehicle Service Transportation
Routes – Washington Network Distribution                NL-AR-10-007       8/4/2010              2.8
Center
Postal Vehicle Services - Scheduling and
                                                        NL-AR-10-008     9/29/2010               40.1
Staffing - Atlanta District

Postal Vehicle Service Transportation
Routes – Suburban Maryland Processing                   NL-AR-11-001     1/13/2011               6.5
and Distribution Center

Total                                                                                        $125.96


In addition, the U.S. Government Accountability Office (GAO) issued five documents
listed in the following chart that include reports and summaries of testimony to
Senate subcommittees relating to the Postal Service's financial crisis and
recommendations needed to achieve financial viability.


                                        Report Title                                  Date Issued

       High-Risk Series: Restructuring the U.S. Postal Service to Achieve
                                                                                        7/2009
       Sustainable Financial Viability (Testimony GAO-09-937SP).

       U.S. Postal Service Restructuring Urgently Needed to Achieve
                                                                                       8/6/2009
       Financial Viability (Testimony GAO-09-958T).

       U.S. Postal Service Financial Crisis Demands Aggressive Action
                                                                                       3/18/2010
       (Testimony GAO-10-538T).

       U.S. Postal Service Strategies and Options to Facilitate Progress
                                                                                        4/2010
       toward Financial Viability (Report GAO-10-455).

       U.S. Postal Service Action Needed to Facilitate Financial Viability,
                                                                                       4/15/2010
       (Testimony GAO-10-624T).


The GAO found that the Postal Service’s financial condition had deteriorated, its
financial outlook was poor, and financial problems are likely to continue unless
management makes fundamental changes that address the challenges in its current
business model by better aligning costs with revenue. The GAO also concluded that
the Postal Service has had difficulty reducing costs because of limited flexibility due,
in part, to work rules under collective bargaining agreements with the unions. Finally,
the GAO concluded that making the necessary progress toward financial viability

6
    Total slightly higher due to rounding difference.

                                                         9
Postal Vehicle Services – Scheduling                                        NL-AR-11-002
 and Staffing – Connecticut Valley District


would require the Postal Service and Congress to pursue strategies and options that
would:

   Reduce compensation, benefits, and other operations and network costs using
    the collective bargaining process to address wages, benefits, and workforce
    flexibility.

   Address legal restrictions and resistance to realigning Postal Service operations,
    networks, and workforce.

The GAO noted that the Postal Service included many of these strategies and
options in the action plan it issued in March 2010, but these planned actions under
its existing authority will not be enough to make it financially viable. Therefore, the
GAO stated that congressional action is urgently needed to require any binding
arbitration resulting from collective bargaining to take the Postal Service’s financial
condition into account.




                                              10
Postal Vehicle Services – Scheduling                                                      NL-AR-11-002
 and Staffing – Connecticut Valley District


                                     APPENDIX B: DETAILED ANALYSIS

Excess Workhours and Associated Cost Reductions

We determined that PVS schedules were efficient at two of the four facilities audited
in the Connecticut Valley District – the Hartford and Stamford P&DCs. However,
officials at the Southern Connecticut and Springfield P&DCs could more effectively
manage PVS transportation processes and schedules to ensure efficiency. We
found that PVS schedules at these two facilities included the following:

   Unassigned time when drivers were not needed for a specific trip or related
    activity.

   Duplicate trips.

   Underutilized trips that management could have consolidated.

This occurred because managers did not conduct PVS schedule reviews as
required7 or perform annual vehicle utilization reviews. Given the dynamic and
ever-changing transportation environment and the need to maintain the
effectiveness and efficiency of PVS operations, the Postal Service requires
management to perform vehicle utilization reviews at least annually to determine
vehicle need.8

We concluded that the Southern Connecticut P&DC could reduce PVS workhours by
11,807 and save about $4.6 million over 10 years without negatively affecting
service. In addition, the Springfield P&DC could reduce PVS workhours by 2,856
and save about $1.3 million over 10 years without negatively affecting service. Total
savings for the Connecticut Valley District would be about $5.9 million. The
Postal Service would achieve more than 97 percent of the savings through
personnel work hour reductions and also realize fuel cost and damage claim
savings, as depicted in Table 1.




7
  Handbook PO-701, Fleet Management, Chapter 23, March 1991, requires PVS operations to perform vehicle
utilization reviews at least annually to maintain effectiveness and efficiency.
8
  Handbook PO-701, Chapter 23, Section 233, specifically requires annual completion of Postal Service (PS)
Form 4575, Motor Vehicle Service Vehicle Survey; PS Form 4572, Tractor Log; and PS Form 4569, Vehicle Use
Plan, to maintain effectiveness and efficiency.

                                                    11
Postal Vehicle Services – Scheduling                                                           NL-AR-11-002
 and Staffing – Connecticut Valley District


               Table 1. PVS Potential Savings – Funds Put to Better Use
                         (Personnel, Fuel, and Damage Claims)

                                                            FY 2013         10-Year Total10
                                     FY 2012 Total9
            Cost Category                                   (Annual)          (FYs 2012          Percentage
                                      (Phased In)
                                                              Total         through 2021)
         Personnel                          $627,873         $614,726           $5,718,977              97.5%
         Fuel                                  8,902            8,836               86,095               1.5%
         Damage Claims                          6,224             6,129               58,156             1.0%
                 Total                      $642,999         $629,691           $5,863,277              100%

Further, the actions would help achieve fuel consumption goals outlined in the Postal
Service’s National Energy Plan by reducing fuel use for Postal Service-owned
vehicles. See Appendix C for detailed calculations.

Throughout our audit, we coordinated proposed schedule realignments with local
transportation managers. The managers reviewed each proposal in conjunction with
their own assessment of operational requirements and we discussed any
differences. Management agreed to 10,101 of the 14,663 workhours we identified as
unnecessary and we believe the remaining 4,562 workhours could produce savings
without jeopardizing on-time performance.

Opportunities to Further Reduce Overall PVS Driver Labor Costs

The Postal Service could further reduce overall PVS operating costs by expanding
the use of all types of part-time drivers and by using split days off for drivers. As
such, managers could more efficiently create schedules that appropriately staff
operations and match workhours with required workload. We determined that for the
Connecticut Valley District, the Postal Service has an opportunity to save more than
$14 million over 10 years by reducing labor costs. The Postal Service should take
advantage of work hour schedule and staffing flexibilities under the existing work
rules and pursue additional flexibilities in this area. See Appendix C for our detailed
calculations.




9
  The FY 2012 figure is conservative to allow for phase-in of work hour reductions during the year.
10
   The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted
to present value by applying factors published by Postal Service Headquarters Finance.

                                                      12
Postal Vehicle Services – Scheduling                                                   NL-AR-11-002
 and Staffing – Connecticut Valley District




                           October 19, 2010. Stamford P&DC PVS transportation
                           arriving at a Postal Service facility to pick up mail for
                                            subsequent delivery.

Work Rules. Most PVS drivers are full-time employees and Postal Service officials
schedule most drivers a total of 40 hours per week, 8 consecutive hours per day,
5 consecutive days per week, with consecutive days off. These conditions exist
because of very restrictive work rules in the collective bargaining agreement
between the Postal Service and the APWU. In summary, the work rules:

 Restrict the percentage of part-time workers to 10 percent in the motor vehicle
  craft.

 Restrict the use of part-time regular employees to 2.5 percent of the overall work
  force.

   Require that consecutive days off be given in certain size facilities.

These requirements create scheduling challenges for Postal Service managers in
that many actual PVS schedules do not contain a consecutive 8 hours of work for a
driver to perform. In addition, the requirement for consecutive days off creates a
need for more additional drivers than necessary if split days off were routinely
allowed (see Appendix D for an analysis of consecutive and split days off). Thus, the
Connecticut Valley District uses more driver hours than required to perform the
necessary transportation functions and is incurring unnecessary costs.

Limited Flexibility Under Existing Work Rules – MOU. On January 15, 2009, the
Postal Service entered into an agreement to relax some of the work rules governing
motor vehicle drivers. The MOU allows PVS drivers to work under modified work
rules at a limited number of pilot facilities. The MOU, in part, allows:
   Drivers to have split days off.

   Drivers to work 8 non-consecutive hours within a 9-, 10-, 11-, or 12-hour day.




                                                     13
Postal Vehicle Services – Scheduling                                       NL-AR-11-002
 and Staffing – Connecticut Valley District


   Management to move employees into different positions within the installation
    without penalty, as long as there is no work to be performed in the motor vehicle
    craft.

Under the MOU, management, with approval from local union officials, is able to
implement any or all provisions. According to union officials, this agreement was
made out of necessity. In a statement posted on its official website, the union stated,
“The USPS decision to condense dispatch windows has made it hard to find eight
hours of continuous work for drivers.” In addition, they stated, “The union agreed to
the MOU because in virtually all installations there is insufficient work within nine
consecutive hours to keep all the drivers gainfully employed.” However, this
agreement is limited to a small number of facilities, and expansion requires union
approval.

More Scheduling Flexibility Needed in Work Rules. The Postal Service needs more
flexibility in staffing and scheduling PVS drivers to make the operations more
efficient.

Part-time Employees. As previously stated, the Postal Service is currently prohibited
from hiring an increased staff of part-time regular employees. Because work within
transportation has decreased, due to a decline in mail volume and distribution
compressions at facilities, part-time employment would greatly benefit the Postal
Service and help significantly reduce costs in the PVS motor vehicle craft. In
addition, part-time regular employees enjoy the same benefits afforded full-time
employees including leave accrual, health benefits, and union representation.

Split Days Off. As previously stated, the Postal Service must give consecutive days
off, with the exception of those limited number of facilities covered by the provision in
the MOU allowing for split days off. We concluded that requiring consecutive days
off results in the need for additional drivers to cover schedules. Specifically, the
number of drivers needed to cover schedules on Sundays is a small percentage as
compared to other days of the week. Because the majority of drivers have Sundays
off under the existing bargaining agreement, they must also have either Monday or
Saturday off to comply with the “consecutive days off” provision. If the Postal Service
can give these drivers another weekday off, fewer drivers would be needed to cover
Saturday and Monday schedules. With consecutive days off, two additional
employees are needed to cover each five full-time schedules. With non-consecutive
days off, one additional employee is needed to cover each five full-time schedules
(see Appendix D for a chart illustrating how the use of split days off results in fewer
workhours).

Benchmarking of Best Practices in the Motor Vehicle Craft. The Postal Service does
not have the same workforce flexibility that a competing delivery company has in the
private sector. We benchmarked staffing and employee complement of motor
vehicle operations against a company with operations similar to the Postal Service’s.
We determined that the other company has the flexibility to schedule and staff its


                                              14
Postal Vehicle Services – Scheduling                                      NL-AR-11-002
 and Staffing – Connecticut Valley District


transportation operations more efficiently based on operational parameters
and volume forecasting. They can also readily eliminate idle time and unnecessary
workhours within the craft.
The competitor predominantly uses full-time employees, but management is able to
move employees from operation to operation based on the needs of the organization
at that given time. If work is not available for drivers, management re-assigns them
to perform other tasks. Managers monitor workloads daily, evaluates productivity in
real time, and adjusts the workforce in response to workload fluctuations. The
company is similar to the Postal Service in that its workforce consists of employees
represented by a union; however, its collective bargaining agreements incorporate
flexible scheduling. Incorporating similar flexibilities and practices in the PVS craft
would greatly benefit the Postal Service.




                                              15
Postal Vehicle Services – Scheduling                                                          NL-AR-11-002
 and Staffing – Connecticut Valley District


                                APPENDIX C: MONETARY IMPACT

                                Work hour and Cost Reductions11

                          Excess Work hour and Associated Cost Reductions
                                                                                    10-Year Total
                                      FY 2012                   FY 2013
          Cost Category                                                              (FYs 2012
                                       Total                 (Annual) Total
                                                                                   through 2021)
        Personnel                           $627,873                $614,726             $5,718,977
        Fuel                                    8,902                   8,836                  86,095
        Damage Claims                           6,224                   6,129                  58,156

                Total                       $642,999                $629,691              $5,863,227



                Postal Service Agreed Work hour Reductions from Part-Time and
                                   Split Days Off Conversion
                                  FY 2012 Total                         10-Year Total
                                                         FY 2013
            Cost Category        (Phased In Over                         (FYs 2012
                                                      (Annual) Total
                                     2 Years)                          through 2021)
      Part-Time Conversion                     $257,262                $755,625             $7,359,230

      Split Days Off Conversion                  223,779                620,763              6,694,391

                 Total                         $481,040              $1,376,388            $14,053,621



                                  Total Work hour Reduction Savings
                                                                                    10-Year Total
                                           FY 2012 Total           FY 2013
                Cost Category                                                         FYs 2012
                                            (Phased In)         (Annual) Total
                                                                                   through 2021)
          Work hour Conversion                   $481,040           $1,376,388        $14,053,621
          Excess Work hour
                                                   642,999             629,691           5,863,227
          Analysis
                        Total                  $1,124,039           $2,006,079       $19,916,84812




11
  Totals slightly different due to rounding.
12
  Impact Category: Funds put to better use are funds that could be used more efficiently by implementing
recommended actions.

                                                        16
Postal Vehicle Services – Scheduling                                   NL-AR-11-002
 and Staffing – Connecticut Valley District


The standard OIG practice for work hour savings calculations employs a 10-year
cash flow methodology, discounted to present value by applying the following factors
published by Postal Service Headquarters Finance.

              Rates by Type                         Factor         Published
    Discount Rate/Cost of Borrowing                3.875 %          5/7/2010
    Labor Escalation Rate                           1.7 %           5/7/2010
    Fuel Cost Escalation Rate                       3.1 %           5/7/2010
    Tort Cost Claim Escalation Rate                 2.3 %           5/7/2010




                                              17
Postal Vehicle Services – Scheduling and Staffing –                                   NL-AR-11-002
 Connecticut Valley District


                       APPENDIX D: CONSECUTIVE AND NON-CONSECUTIVE DAYS OFF ANALYSIS

Fewer Drivers are Needed with Non-Consecutive Days Off - Daily schedules require replacement drivers to cover days
off. The number of drivers needed on lower-volume Sundays is a small percentage of the number needed during other
days of the week. With consecutive days off, more drivers than necessary are scheduled on Sundays, resulting in an
excess amount of unassigned or standby time. With non-consecutive days off, most drivers would have lower volume
Sundays off and another day during the week. With consecutive days off, two replacement drivers are needed for every
five schedules. With non-consecutive days off, one replacement driver is needed for every five schedules.
                         Consecutive Days Off Schedule – Two Replacement Drivers Needed for Every Five Daily Schedules

                  Consecutive
     Route                              Monday         Tuesday        Wednesday       Thursday         Friday       Saturday       Sunday
                   Days Off
                                                                                                                   Replacement   Replacement
      101      Saturday/Sunday            101             101             101            101             101
                                                                                                                     Driver 1      Driver 1
                                     Replacement      Replacement
      102       Monday/Tuesday                                            102            102             102           102            102
                                       Driver 1         Driver 1
                                                       Part-Time      Replacement
      103     Tuesday/Wednesday           103                                            103             103           103            103
                                                      Flex/Casual       Driver 1
                                                                                     Replacement     Replacement
      104       Thursday/Friday           104             104             104                                          104            104
                                                                                       Driver 2        Driver 2
                                                                                                      Part-Time    Replacement
      105       Friday/Saturday           105             105             105            105                                          105
                                                                                                     Flex/Casual     Driver 2

                       Non-Consecutive Days Off Schedule – One Replacement Driver Needed for Every Five Daily Schedules
                 Non-Consecutive
      Route                              Monday          Tuesday        Wednesday       Thursday       Friday       Saturday        Sunday
                    Days Off
                                                                                                                   Replacement
       101       Saturday/Sunday            101             101                101         101           101




                                                                                                                                   schedules covered by
                                                                                                                     Driver 1




                                                                                                                                    part-time flexible or
                                                                                                                                    casual employees.
                                                                                                                                     Small number of
                                       Replacement
       102        Sunday/Monday                             102                102         102           102           102
                                         Driver 1
                                                        Replacement
       103        Sunday/Tuesday            103                                103         103           103           103
                                                          Driver 1
                                                                        Replacement
       104      Sunday/Wednesday            104             104                            104           104           104
                                                                          Driver 1
                                                                                       Replacement
       105       Sunday/Thursday            105             105                105                       105           105
                                                                                         Driver 1




                                                                          18
Postal Vehicle Services – Scheduling and Staffing –       NL-AR-11-002
 Connecticut Valley District



                      APPENDIX E: MANAGEMENT’S COMMENTS




                                                  19
Postal Vehicle Services – Scheduling and Staffing –    NL-AR-11-002
 Connecticut Valley District




                                                  20
Postal Vehicle Services – Scheduling and Staffing –    NL-AR-11-002
 Connecticut Valley District




                                                  21
Postal Vehicle Services – Scheduling and Staffing –    NL-AR-11-002
 Connecticut Valley District




                                                  22
Postal Vehicle Services – Scheduling and Staffing –    NL-AR-11-002
 Connecticut Valley District




                                                  23
Postal Vehicle Services – Scheduling and Staffing –    NL-AR-11-002
 Connecticut Valley District




                                                  24
